  DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


     Vehicle Disposal and Sales Program 

         Within U.S. Border Patrol’s 

              San Diego Sector 





              Office of Audits
OIG-05-47                    September 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland
                                                                         Security
                                                                         Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared by
our office as part of our DHS oversight responsibilities to promote economy, effectiveness, and
efficiency within the Department.

At the request of Bob Filner, the U.S. House of Representatives member for the 51st District of
California, this report assesses the fleet vehicle disposal and sales activities of the U.S. Border
Patrol’s San Diego Sector. It is based on interviews with employees and officials from the U.S.
Border Patrol’s San Diego Sector, U.S. Customs and Border Protection, and General Service
Administration, as well as direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. It is our hope that
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                              Richard L. Skinner 

                                              Inspector General 

Table of Contents/Abbreviations 



  Executive Summary ......................................................................................................................... 1 


  Background ...................................................................................................................................... 4 


  Results of Audit ............................................................................................................................... 4 



       The Sector’s Management of an Aging Vehicle Fleet............................................................... 4 

          Recommendations.............................................................................................................. 11 

          Management Comments and OIG Analysis ...................................................................... 12 


       Vehicle Sales and Transfers..................................................................................................... 12 

          Recommendations.............................................................................................................. 17 

          Management Comments and OIG Analysis ...................................................................... 18 



 Appendices

  Appendix A:             Purpose, Scope, and Methodology. ..................................................................... 19 

  Appendix B:             Management’s Response to the Draft Report...................................................... 21 

  Appendix C:             Major Contributors to this Report ....................................................................... 30 

  Appendix D:             Report Distribution.............................................................................................. 31 



 Abbreviations
  ATV                      All Terrain Vehicle 

  CBP                      U.S. Customs and Border Protection 

  BIA                      Bureau of Indian Affairs 

  CFR                      Code of Federal Regulations 

  DHS                      Department of Homeland Security 

  DRMO                     Defense Reutilization and Marketing Office 

  FPI                      Federal Prison Industries 

  FSC                      Federal Supply Classification 

  GSA                      General Services Administration 

  INS                      Immigration and Naturalization Service 

  OIG                      Office of Inspector General 

  SAP                      System Application Products 

  Sector                   U. S. Border Patrol – San Diego Sector 

  VMIS                     Vehicle Management Information System

                                                                                          Audit
OIG 	
Department of Homeland Security
                                                                                          Report
Office of Inspector General

Executive Summary
                At the request of Bob Filner, the U.S. House of Representatives member for
                the 51st District of California, we audited the fleet vehicle disposal and sales
                activities of the U.S. Border Patrol’s San Diego Sector (Sector). The
                Congressman’s request was primarily spurred by a constituent’s assertions
                that (1) vehicles were prematurely disposed of after major restoration work;
                (2) vehicles were reported as inoperable and downgraded to scrap although
                the majority were actually in good condition; (3) useable vehicles reported as
                inoperable or in poor condition were sold to scrap dealers with major
                components intact; (4) vehicles downgraded to salvage were sold to select
                individuals and companies at extremely low prices without following
                traditional sales procedures; and (5) vehicles and heavy-duty equipment were
                improperly transferred to an Indian Tribe. (See Appendix A for additional
                information on the purpose, scope and methodology of the audit.)

                This report describes the results of our audit of the Sector’s overall
                management of fleet vehicles and focuses primarily on management
                procedures, practices, and processes. Most of these procedures, practices, and
                processes were carried over from the Sector’s legacy agency, the Immigration
                and Naturalization Service (INS), prior to the establishment of U.S. Customs
                and Border Protection (CBP) on March 1, 2003.

                We confirmed the validity of the five assertions by Congressman Filner’s
                constituent and confirmed that the Sector did not manage its aging fleet of
                vehicles in an effective manner or ensure that government funds were
                expended in the most economical way, as follows:

                1. 	 The Sector performed major restoration and expensive work on fleet
                     vehicles that were subsequently sold while retaining lesser-maintained
                     vehicles. INS approved and the Sector expended over $750,000 to restore
                     129 vehicles; however, the Sector subsequently sold 23 of the 90 vehicles
                     sampled.

                2. 	 The Sector downgraded operable vehicles to scrap and in some instances,
                     disposed of these vehicles with major components intact although major



                 Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                       Page 1

     repairs to the components had been accomplished. In other instances, the
     Sector reportedly cannibalized scrapped vehicles for parts but did not
3. 	 document the disposition of the cannibalized parts and could not locate
     the parts or otherwise account for them.

4. 	 The Sector downgraded operable vehicles to scrap and auctioned them at
     local small lot sales even though an interagency agreement between INS
     and the Federal Prison Industries (FPI) dictated that repairable or operable
     Border Patrol vehicles be transported to a FPI facility.

5. 	 The Sector did not follow procedures for local small lot sales of vehicles,
     but sold the majority of vehicles at auction to one wrecking company.

6. 	 The Sector transferred excess equipment through the Bureau of Indian
     Affairs (BIA) to an Indian Tribe Fire Protection District to circumvent the
     costs it would have incurred by returning the property to the Defense
     Reutilization and Marketing Office (DRMO), the entity from which the
     property was originally acquired. Further, the Sector did not comply with
     applicable Surplus Property Donation Program guidelines and General
     Services Administration (GSA) regulations.

While disposal and sales practices needed improvement, it was noteworthy
that in response to a severe shortage of serviceable vehicles to meet the
Border Patrol’s operational readiness standards, the Sector recommended a
stopgap solution in 2001 for restoring its aging Ford Bronco vehicle fleet.
Although we questioned the disposal of some of the restored Ford Broncos, as
recently as March 17, 2005, the Sector reported to CBP that 69 of the 129
vehicles remained operational in the Sector’s fleet.

CBP is currently undertaking an effort to standardize vehicle fleet
management CBP-wide; however, additional improvements are needed and
we made five recommendations to help strengthen controls over the Sector’s
vehicle fleet. These recommendations may be useful to CBP as it evaluates
how effectively other Border Patrol Sectors are managing their fleet vehicles
and as it implements its CBP-wide fleet vehicle management system.

In response to our draft report, CBP agreed with our overall observation that
under INS, the Sector did not manage its aging fleet in an effective manner or
ensure that government funds were expended in the most economical way.
CBP indicated that it has improved controls over vehicle disposal and sales
procedures by creating a CBP-wide Fleet Management Program. CBP
concurred with our recommendations and indicated that its CBP Motor
Vehicle Management Handbook, CIS HB 5200-14, scheduled for release and
distribution during the first quarter of fiscal year 2006, will incorporate our

Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                       Page 2 

recommendations. In addition to the Handbook, CBP Fleet Management
Branch has worked directly with the Sector to ensure compliance with CBP
procedures. The actions taken or planned by CBP, together with increased
Fleet Management Branch oversight, should result in improvements to Sector
and CBP-wide management of motor vehicle fleets.

The complete text of CBP’s response to our draft report is included herein as
Appendix B. We considered the technical comments provided with CBP’s
response and made changes to the final report when deemed appropriate.




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 3
 Background
                In fiscal year 2000, the Sector operated a fleet of approximately 1,800
                vehicles to fulfill its mission of facilitating the flow of legal immigration and
                goods, while preventing the illegal trafficking of people and contraband over
                66 linear miles of the United States’ southwestern border. At that time, over
                90 percent of the vehicles were out of warranty, the operational readiness of
                fleet vehicles had declined to 77.1 percent, Sector stations were falling short
                of the recommended two vehicles to every three agents, and repair costs were
                increasing.

                Budget constraints led to a drastic reduction in the Sector’s allocation of
                replacement vehicles for fiscal year 2000. To increase its operational
                readiness, the Sector proposed a stopgap solution in an October 25, 2000,
                memorandum to INS. The proposal, called the Bronco Body-off/Frame-up
                Restoration Program (Restoration Program), recommended restoration and
                rehabilitation of 100 of the 482 Ford Broncos in the Sector’s aging fleet. The
                proposal requested $1.0 million in INS funding based on anticipated costs of
                $10,000 per vehicle for frames, transmissions, engines, and suspension
                packages. Sector management affirmed that one benefit of the Restoration
                Program was the recapture of costs since the ultimate sale of restored vehicles
                would demand a higher sales price. INS approved $750,000 for the
                Restoration Program. In subsequent years, the Sector returned to a more
                normalized vehicle replacement program and increased its fleet to
                approximately 2,100 vehicles by 2003.

                INS and GSA fleet management guidelines and regulations controlled the
                Sector’s vehicle disposal and sales activities, an interagency agreement
                between the INS and FPI covered the handling of excess fleet vehicles, and
                Sector policies and practices governed the management of its fleet.

Results of Audit
     The Sector’s Management of an Aging Vehicle Fleet
                The Sector did not expend restoration/repair funds in the most economical
                way or effectively manage aging fleet vehicles. Specifically, the Sector:
                (1) performed major vehicle restorations and expensive repairs but
                subsequently disposed of those vehicles in lieu of lesser-maintained ones,
                (2) downgraded other operable vehicles to scrap, and in some instances,
                disposed of them with major components intact although major repairs to the
                components had been accomplished, and (3) cannibalized scrapped vehicles
                for parts but lacked documentation on the disposition of the parts. These

                Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                                      Page 4
deficiencies occurred because INS did not provide sufficient control or
oversight of the Sector’s maintenance and disposal processes, decisions, and
actions, and the Sector focused its efforts on keeping aging vehicles
operational in order to meet mission requirements without necessarily
examining the best ways to satisfy their operational readiness goals.
Inadequate INS oversight and Sector management of repair and disposal
processes likely resulted in a decreased operational readiness posture and
resulted in an ineffective and inefficient use of vehicle repair/restoration
funds.

Vehicle Restoration Activities. In response to a severe shortage of
serviceable vehicles to meet the Border Patrol’s operational readiness
standards, the Sector recommended a stopgap solution in 2001 for restoring its
aging vehicle fleet. The Sector received $750,000 from INS for the
Restoration Program and performed major restoration work on its best
1994-1996 Ford Broncos to extend the service lives of its fleet. However, in
2003, the Sector transferred many of these vehicles to FPI in Bastrop, Texas
to be sold at auction even though it kept other lesser-maintained vehicles.
Although we questioned the disposal of some of the Ford Broncos, as recently
as March 17, 2005, the Sector reported to CBP that 69 of the 129 restored
vehicles remained operational in the Sector’s fleet.

• 	 We reviewed the costs involved in restoring 90 of 129 Ford Broncos, their
    use, and ultimate disposition. Based on the extensive nature of the work
    performed, the number of months of usage, and the mileage put on the
    vehicles after having been restored, the Sector prematurely disposed of
    23 vehicles that had incurred total repair costs of $224,885. Each vehicle
    had major restoration work accomplished on engines, transmissions,
    suspension systems, exhaust systems, and brake systems at an average cost
    of $9,778. On average, the Sector used each vehicle for 19 months and
    drove them about 14,000 miles before forwarding the vehicles to FPI for
    sale in 2003.

   We also noted that transfers to FPI in 2003 did not give consideration to
   the overall operational condition of the vehicles but were based primarily
   on an INS-generated “Hit List”. The list assisted the Sector in selecting
   vehicles to be transferred but was prepared by INS based on vehicle model
   year and odometer readings only. Of the 23 vehicles transferred,
   19 appeared on the “Hit List” while the Sector independently forwarded
   the 4 remaining vehicles to FPI. The Sector had no explanation as to why
   the four vehicles not on the “Hit List” were transferred. Further, the Sector
   did not request that lesser maintained and lesser operationally ready
   vehicles be substituted for vehicles on the “Hit List”. Additionally, the
   Sector had no documentation to indicate that INS or FPI had been

Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                       Page 5 

    informed of the major restoration work accomplished on those vehicles.
    Thus, the potential existed for the vehicles to have been under-valued
    when sold by FPI.

• 	 We judgmentally sampled and reviewed documentation for an additional
    92 vehicles not included in the Restoration Program but subsequently
    transferred to FPI. The review entailed examination of the costs and
    timing of major vehicle repairs and vehicle usage after the repairs. The
    Sector performed major repair work on eight vehicles at an average cost of
    $1,844 within 14 months of the transfer and usage averaged about 13,000
    miles each after the repairs were completed. Two of the eight vehicles
    were repaired 2 months before transfer at a combined cost of $2,867. The
    Sector did not consider the operational condition of the vehicles before it
    took disposal action.

Disposing of restored vehicles while retaining lesser-maintained vehicles at
the same time was an indication of the need for better Sector management of
the maintenance and disposal processes and may have affected the operational
readiness of the Sector. The Sector should consider maintenance and repair
history, including major component repairs or replacements, before taking
disposal action. In addition, benefit/cost analysis may be a useful tool in
determining whether vehicles should be disposed of or repaired. If disposal
action is warranted, the Sector should ensure that it does not expend
restoration/repair funds on those vehicles before disposal.

Scrapped Vehicles. The Sector downgraded operable vehicles to scrap and
disposed of them locally, contrary to an April 1999 interagency agreement
between INS and FPI. This action likely resulted in less sales revenue than
otherwise would have been generated by FPI. In addition, these vehicles did
not meet the Code of Federal Regulation (CFR) definition of scrap and should
have been disposed of using GSA’s disposal guidelines.

In an August 18, 1992, memorandum from GSA’s Western Regional
Administrator, the Sector received specific guidelines for vehicle disposal
activities. According to the memorandum, once GSA declared a vehicle to be
of no commercial value, based on input from the Sector, the vehicle would be
released to the local office for disposition. If justified, a small lot sale could be
held, or the vehicles could be sold as scrap if no buyers expressed interest in a
small lot sale. According to 41 CFR § 102-36.40, scrap is defined as property
having no value except for its basic material content. The same section of the
regulation defines salvage as property having a value greater than its basic
material content but for which repair or rehabilitation is clearly impractical or
uneconomical. The Sector reported some vehicles as scrap to INS
Headquarters that more accurately should have been characterized as salvage.

Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                       Page 6 

                          According to a February 6, 1995, Sector memorandum to staff, which
                          addressed the monetary distinction between a salvage or scrap vehicle,
                          salvage was not the same as scrap inasmuch as an operable vehicle (salvage)
                          would command a higher price than one listed as inoperable (scrap). Further,
                          according to the memorandum, salvaged vehicles could be operated in public
                          roadways with the word Salvage typed on the front of the vehicle title.

                          INS directed the Sector to transport operable vehicles to FPI for auction once
                          the April 1999 interagency agreement was instituted. Additional
                          correspondence between the Sector and INS Headquarters reaffirmed the
                          criteria that the vehicles be operable (salvage) so as to be driven on and off of
                          the transport truck and that the Sector not transport scrap vehicles or those
                          lacking sufficient resale value to cover the transport cost.

                          During fiscal year 2002, the Sector downgraded 131 operable vehicles to
                          scrap and notified GSA that those vehicles would be disposed of through
                          scrap auctions. While the Sector’s actions may have been the quickest and
                          easiest to dispose of excess vehicles, the vehicles met the definition of salvage
                          instead of scrap and should have been transported to FPI:

                          • 	 Eleven vehicles had major repairs or maintenance services performed
                              within 18 months of the auctions. The number and cost composition were
                              as follows: five vehicles had repair costs ranging from $1,000 to $2,000;
                              five vehicles had repair costs ranging from $2,001 to $3,000; and one
                              vehicle had repair costs of over $3,500. Each of the 11 vehicles had
                              limited usage subsequent to the repairs. For example, during a November
                              2002 auction, the Sector sold a 1995 vehicle for $758. The two latest
                              available Government Vehicle Work Orders, dated April 5, 2001 and May
                              9, 2001, showed the vehicle’s odometer readings as 52,433 and 53,701,
                              respectively, and indicated service and repairs including a standard safety
                              check, new front tires, oil change with new filter, new front brakes with
                              adjustment to rear brakes plus replacement of anti-lock braking system
                              sensors, power steering pump, degreasing of engine, and repair to hood
                              hinge. A November 26, 2002 Certificate to Obtain Title noted the
                              odometer reading to be 54,188 miles. 1 As indicated, the Sector drove this
                              vehicle less than 1,755 miles from April 2001 to November 2002 when
                              title transferred to a private party for vehicle use on public roadways.



1
  An INS “Report of Personal Property for Sale” dated September 10, 2001 noted the odometer reading as 85,328 miles.
Based on Government Vehicle Work Orders and the Certificate to Obtain Title, the OIG concluded that the mileage
reported on the Report of Personal Property for Sale was in error.

                           Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                                  Page 7 

• 	 Seven high mileage vehicles were reported within the Sector to be in
    overall fair condition while GSA was informed that the same vehicles
    were scrap. Four of these vehicles had major repairs performed within
    18 months of being auctioned and were also included in the bullet above.
• 	 Seven operating sedan-type vehicles were auctioned at nominal amounts
    because new replacement vehicles were received. No documentation in the
    Sector’s files evidenced high mileage or maintenance concerns for these
    vehicles.

At a minimum, once the Sector determined that vehicles were no longer
required to meet its operational needs, it should have shipped the vehicles to
FPI based on the INS/FPI agreement or sold them at small lot sales following
GSA guidelines.

Cannibalized Vehicles. While the Sector’s staff said that they scrapped both
operable and inoperable vehicles with major repaired components intact,
primarily Ford Broncos, they also reportedly cannibalized (removed) useable
parts and components from some vehicles prior to disposing of the vehicles
for their metal content (scrap) value.

• 	 Sector staff said they evaluated every Ford Bronco in its fleet for structural
    and body integrity and chose 129 vehicles for the Restoration Program.
    Sector staff also said that vehicles not in the program were cannibalized to
    provide parts for Restoration Program vehicles, but little documentation
    could be found to indicate that major parts used in the Restoration
    Program came from other vehicles. Further, while we found indications
    that major parts and components had been cannibalized, the Sector
    generally could not account for these parts and components on
    Government Vehicle Work Orders. Review of the Sector’s records and the
    records of the two wrecking companies to whom scrapped vehicles were
    sold gave an indication that parts were cannibalized as follows:

    o 	One company paid $10 per ton for each scrapped vehicle. The curb
       weight of a standard equipped Ford Bronco was generally 4,350
       pounds, excluding weight attributable to fluids, wheels, and optional
       equipment, such as the upgraded suspension systems installed by the
       Border Patrol. A summary of disposal records from the wrecking
       company indicated that 32 scrapped Ford Broncos weighed under the
       expected norm of 4,350 pounds, as follows: 25 vehicles weighed less
       than 3,800 pounds; four vehicles weighed between 3,800 pounds and
       4,000 pounds; and nine vehicles weighed between 4,001 pounds and
       4,125 pounds. We concluded that these vehicles weighed substantially
       less than a standard equipped Ford Bronco because components were
       removed. Further, the salvage yard described some vehicles as

Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                       Page 8 

        “shells.” Despite the evidence indicating that major components had
        been removed from scrapped vehicles, Sector records documented
        only five vehicles on which parts or components were reinstalled.

   o 	Another company paid a set amount of $20 per vehicle regardless of
      the scrapped vehicle’s weight or completeness. The Sector scrapped 50
      inoperable vehicles with major repaired or restored components
      installed with less than 10,000 miles of usage when disposed of as
      scrap. The Sector’s records indicated that only two components had
      been removed and reinstalled into another fleet vehicle.

   We determined that the Sector installed only new/rebuilt major
   components, i.e., engines, transmissions, rear ends, etc., into the 129
   vehicles included in the Restoration Program. We also reviewed the
   maintenance history records of 250 Ford Broncos that were sold to
   wrecking companies as scrap. According to the maintenance history
   records and the aforementioned underweight of vehicles scrapped, useable
   components existed and were removed from vehicles. However, while the
   Sector reported that cannibalized parts were often used, it did not always
   document which fleet vehicles were cannibalized and which fleet vehicles
   were repaired using the cannibalized parts and components. At least
   80 Ford Broncos had major repaired components that could have been
   removed or were removed based on scrapped vehicle weights and repair
   histories. However, little documentation existed to show the disposition or
   location of these parts.

• 	 The Sector also scrapped 66 non-operable all terrain vehicles (ATVs)
    during the period covered by our audit and reportedly cannibalized useable
    parts from these vehicles before disposing of the vehicles. The
    maintenance histories of the ATV inventory showed instances where
    major components, i.e., new/rebuilt engines, starters, etc., were installed in
    fleet ATVs for authorized repairs within a relatively short time period
    prior to being scrapped. However, as with other vehicles in the Sector’s
    fleet, the Sector did not always document which ATVs were cannibalized
    for parts and components and which ATVs were repaired.

Overall, the Sector lacked operational controls or procedures that required
documenting on Government Vehicle Work Orders the removal of parts and
components from one vehicle to be reinstalled on another. Specifically, the
Sector could not account for major operable/recently repaired components,
e.g., engines and transmissions that were subsequently removed from vehicles
or ATVs before scrapping those vehicles. Furthermore, the Sector had no
inventory of parts that had been cannibalized and Sector officials said that it
had no formal policy on cannibalizing components. This may have

Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                       Page 9 

contributed to the lack of documentation recording such actions but does not
explain the lack of any working, on-hand inventory of cannibalized parts.
While INS Headquarters endorsed and funded the Restoration Program, and it
believed that useable parts would be removed from one vehicle and reinstalled
on another, INS had no policy on the general practice of cannibalization. In
addition, Sector records gave little indication that cannibalization occurred.
Further, due to the lack of documentation supporting the removal of
components from scrap vehicles being reinstalled into other fleet vehicles, and
a lack of working on-hand inventory of cannibalized parts and components,
parts and components were susceptible to misuse or misappropriation.

Lastly, the Sector did not properly account for vehicle maintenance services
and repairs. Specifically, the individual history files set up for each vehicle did
not include hundreds of Government Vehicle Work Orders, some up to two
years old. The Sector’s failure to maintain these records inhibited its ability to
accurately determine the service level of the fleet and to make sound repair or
replacement decisions.

Conclusion. According to property management guidelines provided in
41 CFR § 102-36.45(b)(1), an agency should promote the use of available
excess property to the maximum extent practicable and continuously monitor
its property to ensure maximum use. Further, agencies are required to develop
and maintain a system to prevent and detect non-use, improper use, and
unauthorized disposal or destruction of property. The issues discussed in this
finding highlight the need for the Sector to better manage its vehicle fleet.

The Sector needs to maintain current status information reflecting each of the
vehicle’s projected operational use based on periodic maintenance services or
major component replacements. In addition, the Sector should specifically
identify vehicles selected for disposal and require a designated authorization
level before any major repairs are performed. Further, if CBP authorizes parts
to be cannibalized, the Sector needs guidelines and controls over cannibalized
parts and components to ensure that they are adequately documented in
Government Vehicle Work Orders and are properly accounted for and
inventoried. Lastly, all Government Vehicle Work Orders should be included
in vehicle history files so that the Sector can make informed repair decisions.

Subsequent to our fieldwork, CBP provided additional documentation and
information on actions already taken or in process to improve the Sector’s
management of its vehicle fleet.

• 	 CBP officials said that its automated system, System Application Products
    (SAP), has greatly improved the Sector’s management over fleet vehicles.
    CBP has a contractor-developed Data Matrix Program to determine if

Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                      Page 10 

          repairs are cost effective or if a reclassification of salvage or scrap is
          warranted. However, based on the documentation provided by CBP, the
          SAP does not specifically determine service life extensions resulting from
          major repairs or replacement of major components such as engines and
          transmissions.

       • 	 CBP officials said that it did not convert all of the Sector’s individual fleet
           records due to systems configuration incompatibility between SAP and
           legacy INS system(s) and incomplete or inaccurate vehicle data. CBP
           indicated that as part of the contractor-developed Data Matrix Program, it
           now monitors vehicle life cycles from procurement to disposal for all
           vehicles acquired after April 2004 and requires that all vehicle repairs over
           $2,500 be approved by CBP Headquarters.

       • 	 Sections of the 1996 U. S. Customs Service’s Vehicle Management
           Handbook currently serves as one of the formal policies for all CBP
           entities. Additionally, CBP uses legacy U. S. Custom Service’s Vehicle
           Management Information System (VMIS). Like SAP, VMIS collects
           specific repair and maintenance data per vehicle. Data entries posted into
           SAP and VMIS for fleet vehicles acquired post-April 2004 allow CBP to
           determine the current vehicle status and projected operational use based on
           periodic maintenance services or major component replacements. Further,
           as of April 28, 2005, CBP’s new Fleet Management Handbook reflecting
           current policies and practices such as the SAP system was still undergoing
           final review and had not been issued to field offices.

       The conclusions in this finding and the following recommendations consider
       the additional information provided by CBP subsequent to our fieldwork.

Recommendations
       We recommend that the Commissioner, Bureau of Customs and Border
       Protection:

       Recommendation #1: Require the Sector to evaluate vehicle age, mileage,
       maintenance and repair history, general physical appearance, and the
       condition of the chassis and suspension for fleet vehicles not tracked in SAP
       or VMIS, before requesting CBP approval to perform repairs in excess of
       $2,500 or to reclassify fleet vehicles as salvage or scrap.

       Recommendation #2: Develop a policy on cannibalizing scrap vehicles for
       useable parts and components, and if cannibalization is authorized by CBP,
       establish specific guidelines and controls to ensure that such parts and


       Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                             Page 11
           components are adequately documented in Government Vehicle Work Orders
           and are properly accounted for and inventoried.

           Recommendation #3: Require the Sector to include all Government Vehicle
           Work Orders in applicable history files when maintenance services and repairs
           are performed.

  Management Comments and OIG Analysis
           CBP concurred with Recommendations 1 through 3 stating that its CBP Motor
           Vehicle Management Handbook, CIS HB 5200-14, scheduled for release and
           distribution during the first quarter of fiscal year 2006, will incorporate the
           OIG’s recommendations to (1) evaluate vehicle repair and replacement
           criteria, (2) provide specific criteria for cannibalizing CBP vehicles and
           ensuring that parts are properly accounted for and inventoried, and (3) include
           all Government Vehicle Work Orders in applicable history files when
           maintenance services and repairs are performed. CBP’s Fleet Management
           Branch staff has worked directly with the Sector Vehicle Officer to ensure
           compliance with CBP procedures and CBP plans to issue the Handbook by
           December 31, 2005.

           The actions taken and planned by CBP meet the intent of the three
           recommendations. With the issuance of the CBP Motor Vehicle Management
           Handbook and continuing CBP oversight, CBP can better assess if the Sector
           effectively manages its fleet of vehicles and expends government funds in the
           most economical manner.

Vehicle Sales and Transfers
           To expedite the disposal process as replacement vehicles arrived, the Sector
           improperly downgraded vehicles to scrap and auctioned them at local small
           lot sales, obtaining GSA authorization to conduct small lot sales based on
           representations that the operable vehicles were scrap. This was contrary to
           GSA regulations. Also a formal agreement between INS and FPI required the
           transfer of excess vehicles to FPI as replacement vehicles arrived in the
           Sector. In addition, the Sector transferred excess equipment through BIA to an
           Indian Tribe Fire Protection District without the statutory authority to do so
           thereby circumventing the applicable Surplus Property Donation Program
           guidelines. Downgrading vehicles to scrap and auctioning them at local small
           lot sales resulted in a substantial loss of sales revenue and gave the appearance
           of wrongdoing since most of the auctioned vehicles were sold to a single
           wrecking company. By transferring equipment to an Indian Tribe Fire
           Protection District, other federal and state agencies were not afforded the
           opportunity to claim the excess property.
           Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                 Page 12 

Small Lot Sales. The Sector obtained GSA authorization to conduct small lot
sales based on representations that the vehicles were scrap, i.e., no
commercial value, and that many of the vehicles were missing parts. In
addition, the Sector informed GSA that sales conducted in compliance with
GSA guidelines would be uneconomical or impractical and that the storage of
the vehicles was creating a severe parking space shortage for the Sector’s
operational fleet. In a November 17, 2003 memorandum to the OIG, a Sector
fleet management official stated that while vehicles may have been operable,
some had structural frame cracks and were made inoperable by intentionally
cutting out sections of the frame in obvious locations that could not be
repaired. The memorandum stated that this action was taken to ensure that the
vehicles were not resold to third parties.

The Sector downgraded 131 vehicles to scrap and conducted five small lot
sales in 2002. The Sector marketed the sales by facsimile transmittal to five or
six companies or individuals 2 to 3 days in advance of the auction. One
wrecking company purchased 92 of the 131 vehicles and another wrecking
company purchased 32. Further, the company that purchased the majority of
the vehicles was licensed by the State of California as a dealer of used
automobiles rather than an auto dismantler. The Certificate to Obtain Title
prepared by the Sector for the auctioned vehicles bore the stamp Salvage Only
allowing the vehicles to be registered and operated on public roadways.
Despite the Sector’s representations that all vehicles determined to be scrap
were inoperable or made inoperable prior to the auction, the used automobile
dealer resold the vehicles in the retail market at a substantial profit.

We reviewed 43 of the 92 vehicles purchased by one company in 2002, and
determined that the 43 vehicles were resold to the public for $70,518 more
than the company paid the Sector. Two examples of vehicles purchased at
auction and resold to the public are shown below:

• 	 Six 1997 Chevrolet Tahoes were sold at a December 15, 2002, auction for
    $1,510 each. Five of the vehicles were resold for $4,000 each and one for
    $3,632.

• 	 Two 1995 and two 1996 Ford Broncos were sold at the same auction for
    $210 each and subsequently resold to the public--three for $2,500 each
    and one for $2,455.

We did not determine whether the company incurred any repair or restoration
costs prior to reselling the vehicles that it had purchased at auction.

The Sector circumvented formal disposal processes in at least two ways.

Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 13
                         • 	 First, the Sector failed to follow the small lot sales processes outlined in
                             January 1988 by the Department of Justice. 2 Specifically, notification of
                             the sale was to be provided to prospective bidders and posted in prominent
                             locations at least 14 days prior to the sale and inspection of the vehicles
                             was to be permitted for at least 2 days. In addition, the Sector was required
                             to set a minimum price as a standard for evaluating the bids received.

                         • 	 Second, operable vehicles should have been transferred to FPI as agreed to
                             in April 1999 thus ensuring that (1) top dollar was received for INS
                             vehicles sold at auction and (2) sale proceeds were properly accounted for
                             and deposited in an INS account. However, only one vehicle was sent to
                             FPI between 1999 and 2002.

                         Downgrading operable vehicles to scrap and auctioning them at local small lot
                         sales was contrary to INS directions to the Sector, likely resulted in a
                         substantial loss of sales revenue, and gave the appearance of deliberate
                         wrongdoing since the Sector did not follow established small lot sales
                         procedures.

                         Transfers to the Federal Prison Industries. An April 14, 1999, interagency
                         agreement between INS and FPI required the transfer of excess vehicles to
                         FPI as replacement vehicles arrived in the Sector. According to the terms of
                         the agreement, FPI would prepare the transferred vehicles for sale and
                         perform minor maintenance and other work as deemed necessary to ensure
                         that top dollar was received at auction. INS was required to provide FPI a
                         condition report of each vehicle shipped. FPI agreed to use an INS-developed
                         Vehicle Pre-Sale Inspection Checklist to inspect and report the condition of
                         each vehicle to INS and to suggest other repairs that could be made to increase
                         sale proceeds. INS was then supposed to report each transferred vehicle to
                         GSA and coordinate with GSA and FPI to ensure that each vehicle was sold
                         and that sale proceeds were properly accounted for and deposited in an INS
                         account.

                         While the Sector reported 72 new vehicle acquisitions in 2000, 87 in 2001,
                         and 343 in 2002, it transferred only one vehicle to FPI before 2003. Instead,
                         the Sector classified many of its aging fleet vehicles as scrap and disposed of
                         them locally. The Sector began adhering to the terms of the agreement in 2003
                         when it transferred 151 excess vehicles to FPI. Of those 151 vehicles, 84
                         appeared on the INS “Hit List” and 67 did not. Since the Sector did not
                         document the overall condition or the maintenance histories of the vehicles

2
 INS and U.S. Border Patrol were operating entities under the Department of Justice until March 1, 2003, when DHS
was established.

                         Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                               Page 14 

transferred to FPI, we could not determine whether the vehicles were the least
operationally ready, or whether FPI sales revenues were maximized at the
time the vehicles were sold.

The Sector’s failure to adhere to the terms of the 1999 agreement until 2003,
and the fact that beginning in 2003, the Sector independently transferred 67
vehicles to FPI that were not on the “Hit List”, reflected a need for better
management oversight of Sector disposal and sales activities. Further, by
classifying the condition of excess vehicles as scrap prior to 2003, the Sector
circumvented compliance with the agreement and may not have generated the
sales revenue from small lot sales that would have been generated by FPI.

Transfer of Excess Equipment. The Sector transferred excess equipment
through BIA to an Indian Tribe Fire Protection District to circumvent the costs
it would have incurred by returning the property to DRMO, the entity from
which the property was originally acquired. The excess equipment fell under
Federal Supply Classification (FSC) Group 24 (Tractors); Group 38
(Construction, Mining, Excavating and Highway Maintenance Equipment);
and Group 62 (Lighting Fixtures and Lamps). Further, the Sector did not
comply with applicable Surplus Property Donation Program guidelines and
GSA regulations. As a result, other federal and state agencies were denied the
opportunity to claim the Sector’s excess property. DRMO was unaware that
the Sector transferred the property to the Indian Tribe.

The Sector acquired some of its FSC Group 24 (tractors) and FSC Group 38
(water trucks, dump truck, fuel truck, cherry picker, bulldozer, and dozers)
equipment from DRMO. Once it deemed the equipment excess, the Sector
was responsible for the costs of returning the equipment to DRMO.

In 2003, the Sector transferred 27 heavy-duty equipment items to a local
Indian Tribe Reservation Fire Protection District through BIA to minimize the
disposal costs it would have incurred if the property items were shipped back
to DRMO. Some of the equipment, such as light towers, was classified as
open inventory when discussions initially started directly with the Tribe’s
representatives in January 2003. The second group of heavy-duty truck,
trailers, tractors, and bulldozers was classified as available for sale. However,
prior to the transfer in June 2003, the Sector indicated that the light towers and
heavy-duty equipment were inoperable or scrap. The Sector prepared and
submitted property transfer reports with equipment itemized in the
Instructions or Remarks section “Transfer of Vehicles to Bureau of Indian
Affairs for fire fighting efforts.” None of the equipment met the FSC Group
42 classification of fire fighting equipment or safety and rescue equipment.



Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                      Page 15 

According to 41 CFR § 102-36.145, agencies can make direct transfers of
property without GSA participation provided the transferring agency has the
statutory authority to do so and the receiving entity is an eligible recipient.
The Sector did not have the statutory authority to transfer excess property to
the Indian Tribe, even using BIA as an intermediary in the transfer.

According to 41 CFR § 102-36.210, the Sector is required to report excess
property to promote reuse by the Government and to enable federal agencies
to benefit from the continued use of property already paid for with taxpayers'
money. Further, the reporting of excess property to GSA helps assure that
information on available property is accessible and disseminated to the widest
range of reuse customers. In addition, 41 CFR § 102-36.35 requires that
excess property be offered for use elsewhere within an agency. If the property
is no longer needed within an agency, it is declared excess and reported to
GSA for possible transfer to eligible recipients, including other federal
agencies. If GSA determines that no federal requirements exist for the excess
property, it becomes surplus property and is available for donation to state and
local public agencies and other eligible non-federal activities through the
Surplus Property Donation Program. These regulations require that surplus
property be distributed to eligible recipients by an agency established by each
state for this purpose.

While the Sector minimized excess property disposal costs, it did not comply
with applicable guidelines and regulations governing the disposition of such
property. By doing so, the Sector circumvented the prescribed priorities for
federal and state agency claims to surplus property.

Conclusion. The Sector managed its vehicle fleet without higher-level
oversight as indicated by its failure to (1) follow the small lot sales processes
outlined in January 1988 by the Department of Justice and (2) adhere to the
interagency agreement between INS and FPI for nearly 4 years. Further, the
Sector: (1) classified vehicles as poor and inoperative and improperly
disposed of them through local small lot sales rather than sending them to FPI;
(2) disposed of vehicles not identified by INS on its “Hit List;”, and (3) did
not comply with property disposal regulations when it transferred vehicles and
equipment to the Indian Tribe. Consequently, the Sector gave the appearance
of wrongdoing and may have lost revenue that otherwise could have been
generated if established regulations, policies, agreements, and guidelines had
been followed.

CBP provided us additional information subsequent to the audit fieldwork.
We considered that additional information in developing our findings,
conclusions, and recommendations.


Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 16
         • 	 CBP pointed out that it engaged a contractor to replace the local small lot
             sales procedures. The contract covers June 1, 2004, through June 30,
             2008; includes disposal of salvage and scrap vehicles; and mandates
             specific practices based on the CFR for full and free competition in the
             auction process. CBP also provided sections of the 1996 U. S. Customs
             Service’s Vehicle Management Handbook. The Handbook does not
             address the transfer of vehicles to FPI or sales conducted by a contractor.
             However, the new CBP Fleet Management Handbook, once issued, should
             address management policies, procedures, and agreements applicable to
             the Sector’s vehicle fleet and should have provisions allowing CBP to
             monitor Sector compliance with specific guidance relative to vehicle sales
             and transfers. Until the new handbook is available, CBP communicates
             current policies, procedures, and practices through channels such as CBP’s
             “Information Notices”, and its monthly newsletter “High Beam”.

         • 	 CBP renewed its agreement with FPI in December 2004 wherein
             salvageable fleet vehicles are to be forwarded to FPI for sale. Further,
             CBP implemented formal internal procedures that assign responsibilities
             for complying with the provisions of the agreement.

         • 	 CBP indicated that the SAP system has a module where prerequisites must
             be met before a SF 120 Excess Property form can be generated. As part of
             the SAP system approval process, the Fleet Management Branch Personal
             Property Specialist is the authorizing official. The workflow in SAP
             system uses the property code to send the disposal document to the
             appropriate CBP official for review and approval.

Recommendations
         We recommend that the Commissioner, Bureau of Customs and Border
         Protection:

         Recommendation #4: Monitor Sector compliance with vehicle sale and
         transfer policies, procedures, and practices currently based on CBP’s
         information notices and monthly newsletters and ultimately to be based on its
         new Fleet Management Handbook.

         Recommendation 5: Require the Sector to submit to the appropriate CBP
         Headquarters approving official properly prepared SF 120 Excess Property
         Forms for surplus property not tracked in SAP.




          Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                Page 17 

Management Comments and OIG Analysis
          CBP concurred with the Recommendations 4 and 5 and indicated that its Fleet
          Management Branch staff has worked directly with the Sector Vehicle Officer
          to ensure compliance with CBP procedures. CBP said that the recommended
          actions will be addressed in the CBP Motor Vehicle Management Handbook,
          CIS HB 5200-14, that is planned for issuance by December 31, 2005.

          For Recommendation 4, CBP stated that its Fleet Management Branch staff
          monitors Sector and all of CBP compliance by generating SAP daily vehicle
          reports, annual self-inspections that sample disposals, and a 100 percent
          annual inventory. For Recommendation 5, CBP indicated that the Sector now
          works directly with the Fleet Management Branch staff and that it requires an
          official SF-120 for excess property be prepared in SAP regardless of whether
          or not the item is recorded in SAP.

          The actions taken or planned by CBP, together with increased Fleet
          Management Branch oversight should result in improvements to the way the
          Sector disposes of excess vehicles and equipment.




         Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                               Page 18 

                Appendix A
                Purpose, Scope, and Methodology


Purpose, Scope, and Methodology
                At the request of Bob Filner, the U.S. House of Representatives member for
                the 51st District of California, we assessed the fleet vehicle disposal and sales
                activities of the U.S. Border Patrol’s San Diego Sector (Sector). The purpose
                of the audit was to determine whether:

                • 	 Vehicles were prematurely disposed of after major restoration work;

                • 	 Vehicles were reported as inoperable and downgraded to scrap although
                    the majority were actually in good condition;

                • 	 Useable vehicles reported as inoperable or in poor condition were sold to
                    scrap dealers with major components intact;

                • 	 Vehicles downgraded to salvage were sold to select individuals and
                    companies at extremely low prices without following traditional sales
                    procedures; and

                • 	 Vehicles and heavy-duty equipment were improperly transferred to an
                    Indian Tribe.

                We visited the Sector’s Headquarters in Chula Vista, California and three
                separate Sector maintenance stations in Chula Vista, Imperial Beach, and San
                Ysidro. We focused our review on vehicles acquired before 2000 and major
                repairs to and disposal of those vehicles between 1999 and 2002. For the
                period under audit, the Sector operated a vehicle fleet of about 1,800 vehicles.

                We reviewed INS and GSA fleet management guidelines and regulations,
                including an interagency agreement between INS and FPI. We also reviewed
                Sector policies and practices governing the management of its fleet, including
                the Sector’s implementation of the INS-approved Bronco Body-off/Frame-up
                Restoration Program. We interviewed key Sector and GSA personnel, and for
                vehicles included within the scope of the audit, we reviewed and analyzed
                documentation for those vehicles downgraded to scrap/salvage and either sold
                for their metal content value or sold in small lot sales. Maintenance and repair
                histories were reviewed and the subsequent use of vehicles was determined.
                We also assessed the Sector’s practice of cannibalizing useable parts and
                components from inoperable vehicles as well as the associated record keeping
                and accounting controls for such actions. Lastly, we reviewed the
                documentation and correspondence associated with the transfer of heavy-duty
                equipment to an Indian Tribe Fire Protection District.



                 Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                       Page 19 

Appendix A
Purpose, Scope, and Methodology


Audit work was conducted between October 2003 and May 2005 and
performed under the authority of the Inspector General Act of 1978, as
amended, and according to Government Auditing Standards issued by the
Comptroller General of the United States.

Throughout the audit, we worked closely with Sector officials and kept Sector
and CBP officials informed of audit progress. Subsequent to audit fieldwork,
we discussed potential findings with officials from CBP and the Sector. CBP
provided us with additional information not available in the Sector to reflect
ongoing and planned fleet vehicle management initiatives. CBP provided
comments on how those initiatives would address many of the control
weaknesses identified at the Sector. CBP inputs and additional information
were considered in drafting this report and revisions were made as
appropriate, based on the information provided. The cooperation and
courtesies extended to our audit team by CBP and the Sector were
appreciated.




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 20
                Appendix B
                Management Responses to the Draft Report




Management’s Response to the Draft Report





                 Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                       Page 21 

Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                      Page 22 

Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 23
Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                      Page 24 

Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 25 

Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                      Page 26 

Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 27 

Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                      Page 28 

Appendix B
Management Responses to the Draft Report




Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector

                                      Page 29 

                 Appendix C
                 Major Contributors to this Report



Major Contributors to this Report
                 Robert Lastrico, Field Office Director, San Francisco Field Office
                 Curtis Johnson, Auditor, San Francisco Field Office
                 Joseph Artes, Special Agent in Charge, San Diego Field Office
                 James Black, Assistant Special Agent In-Charge, San Diego Field Office
                 Robin Clements, OIG Investigator, San Diego Field Office




                 Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                       Page 30 

                 Appendix D
                 Report Distribution




Report Distribution

                 Department of Homeland Security

                 Secretary
                 Deputy Secretary
                 Chief of Staff
                 General Counsel
                 Executive Secretariat
                 Assistant Secretary, Public Affairs
                 Under Secretary, Border and Transportation Security
                 Commissioner, Customs and Border Protection
                 Director, Citizenship and Immigration Service
                 Customs and Border Protection, Audit Liaison
                 Citizenship and Immigration Service, Audit Liaison
                 Border and Transportation Security, Audit Liaison
                 DHS GAO/OIG Liaison

                 Office of Management and Budget

                 Chief, Homeland Security Branch
                 DHS OIG Budget Examiner

                 Congress

                 Congressional Oversight and Appropriations Committees, as Appropriate
                 The Honorable Bob Filner, U.S. House of Representatives




                  Vehicle Disposal and Sales Program Within the U. S. Border Patrol’s San Diego Sector


                                                        Page 31 

Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or operations,
call the OIG Hotline at 1-800-323-8603; or write to Department of Homeland
Security, Washington, DC 20528, Attn: Office of Inspector General, Investigations
Division – Hotline. The OIG seeks to protect the identity of each caller and writer.
